Case: 19-12320

Date Filed: 06/12/2020

Page: 1 of 10

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12320-D

LARRY D. ODUM,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
Larry Odum was convicted in Florida state court of vehicular homicide (Count
1) and reckless driving causing serious bodily injury (Count 2). He was found to be
a Habitual Felony Offender and is currently serving a 25-year sentence for Count 1
and a 5-year concurrent sentence for Count 2. Mr. Odum filed this 28 U.S.C. § 2254
petition, raising the following claims:
Claim 1:

His Habitual Felony Offender sentence violated his Sixth
Amendment right to trial by jury;

Claim 2:

His counsel provided ineffective assistance at trial for:

g?
.i

/

Case: 19-12320

Date Filed: 06/12/2020

Page: 2 of 10

a) not presenting evidence for a defense theory of careless
driving,
b) not hiring an expert to refute the state’s expert on the issue
of whether Mr. Odum was speeding,
c) interfering with Mr. Odum’s right to testify on his own
behalf, and
d) not objecting to the presentation of evidence related to the
presence of alcohol on Mr. Odum and in his car at the time
——■of the collision;.
Claim 3:

JA& was resentenced in violation of double jeopardy
because the most recent amended sentence increased his
term on Count 1 by five years; and

Claim 4:

Mis sentence as a Habitual Felony Offender is illegal
^xbecausd it was not orally pronounced at the original
sentencing, which made his most recent habitual offender
sentence violate double jeopardy.

Mr. Odum asks for a certificate of appealability (“COA”) to litigate these
claims in this Cour|. He alsoseeks a COA to appeal the District Court’ s denial of
his motion to add a new claim.
A COA may issue “only if the applicant has made a substantial showing of
the denial of a constitutional right.” Miller-El v. Cockrell. 537 U.S. 322, 327, 123
S. Ct. 1029, 1034 (2003); see 28 U.S.C. § 2253(c)(2). An applicant for a habeas
petition meets this standard by showing that “reasonable jurists could debate whether
(or, for that matter, agree that) the petition should have been resolved in a different
V manner or that the issues presented were adequate to deserve encouragement to
proceed further.” Slack V. McDaniel. 529 U.S. 473, 484, 120 S. Ct. 1595, 1603-04
2

Case: 19-12320

Date Filed: 06/12/2020

Page: 3 of 10

(2000). When a state court has adjudicated a claim on the merits, a federal court
may grant habeas relief only if the state court’s decision (1) “was contrary to, or
involved an unreasonable application of, clearly established [federal law, as
determined by the Supreme Court,” or (2) “was based on an unreasonable
determination of the facts in light of the evidence presented in the [sjtate court
proceeding.” 28 U.S.C. § 2254(d)jA~state prisoner seeking federal habeas relief
“must show that the state court’s ruling on the claim being presented in federal court
was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.”
Harrington v. Richter, 562 U.S. 86, 103, 131 S. Ct. 770, 786-87, 178 L. Ed. 2d 624
(2011).
Claim 1: Habitual Felony Offender Status
Mr. Odum argues that his sentence for being a Habitual Felony Offender
violated Annrendi v. New Jersey, 530 U.S. 466, 120 S. Ct. 2348 (2000), because the
jury did not make a factual finding about his status as(a^Habitual Felony Offender.
Mr. Odum cannot show that the state court’s adjudication of his claim was an
unreasonable application of clearly established federal law.
Annrendi held that, “[ojther than the fact of a prior conviction, any fact that
increases the penalty for a crime beyond the prescribed statutory maximum must be
submitted to a jury.” Id at 490, 120 S. Ct. at 2362-63. The Florida Habitual Felony
3

Case: 19-12320

Date Filed: 06/12/2020

Page: 4 of 10

Offender law, Fla. Stat. § 775.084(4)(e), provides for “extended term of
imprisonment” if “[t]he defendant has previously been convicted of any combination
of two or more felonies.” j^eeauseTsentencTunder the Habitual eloi
(awrequires proof of prior convictions, which Apprendi specifically exempts from
he jury’s factfinding function, the state court did not unreasonably deny Mr. Odum’s
Apprendi claim. Indeed, Florida courts have consistently applied Apprendi to hold
that the jury is not required to “make factual determinations concerning a
defendant’s qualification for habitual offender sentencing.” See Tillman v. State,
900 So. 2d 633, 634 (Fla. 2d. DCA 2005) (collecting cases). Thus, Mr. Odum has
not shown that he is entfrledto^COAren-his Apprendi claim.
im.2: Ineffective Assistance of Counsel
Is
Mr. Odum next argues that his counsel was ineffective at four points in the
trial proceedings: 1) failing to present a defense that Odum was merely carelessly
driving; 2) failing to hire a defense expert on accident reconstruction; 3) advising
Odum not to testify in his own defense; and 4) failing to object to evidence at trial
of alcohol in Odum’s car.
To establish ineffective assistance of counsel, a petitioner must show that
(1) his attorney’s performance was deficient, and (2) the deficient performance
prejudiced his defense. Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct.
2052, 2064, 80 L. Ed. 2d 674 (1984). Deficient performance “requires showing that
4

/.

Case: 19-12320

Date Filed: 06/12/2020

Page: 5 of 10

v

counsel made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth Amendment.” Id. Prejudice occurs when
there is a “reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding w
The state co>

ave been different.” Id. at 694, 104 S. Ct. at 2068.

did not unreasonably determine that Mr. Odum received

effective assistance of counsel at trial. Mr. Odum’s counsel did introduce evidence
supporting a careless driving theory: that the roads were slick and it was dark, so
Odum might not have seen the red light that he ran. Mr. Odum’s counsel also chose
to cross-examine the state’s expert witness in lieu of calling a defense expert. Mr.
Odum’s counsel was entitled to make decisions of trial strategy, including the choice
of defense theory and the decision whether to call expert witnesses. See Sinclair v.
Wain wright, 814 F.2d 1516, 1519 (11th Cir. 1987) (articulating the “strong
presumption that trial counsel’s conduct is the result of trial strategy” and noting that
“strategic choices made after thorough investigation of law and facts ... are virtually
unchallengeable”); see also Dorsey v. Chapman. 262 F.3d 1181, 1186 (TTtTTUirT^'x
z'

2001) (holding that counsel’s failure to call an expert witness did not constitute
ineffective assistance because the defendant did not show “that no competent
attorney would have chosen thisjrtrategy^k, Mhnson v. Alabama, 256 F.3d 1156,
1178 (11th Cir. 2001) (holding that counsel was not ineffective for choosing one
defense theory over another).
5

Case: 19-12320

Date Filed: 06/12/2020

Page: 6 of 10

Additionally, the state court reasonably determined that Mr. Odum’s counsel
was not ineffective for failing to object to evidence of alcohol at the scene of the
offense. Mr. Odum’s attorney filed a motion in limine to exclude this evidence. The
trial court denied the motion. Based on the trial court’s ruling on the motion in
limine, the state habeas court was not unreasonable to conclude that counsel’s
objection to this evidence at trial would not have succeeded.

See Bolender

v. Singletary. 16 F.3d 1547, 1573 (11th Cir. 1994) (holding that counsel is not
ineffective for failing to raise meritless issues).
Finally, the state court reasonably determined that Mr. Odum’s counsel was
not ineffective for advising him to waive his right to testify at trial. After he received
his counsel’s advice, Mr. Odum knowingly-and voluntarily waived his right to
testify. Our Court has held that counsel can provide constitutionally effective
assistance by advising a defendant to waive his right to testify, because the ultimate
____ _

decision whether to testify is up to ttfe^iefendant himself. Se^United States v.
Teaeue. 953 F.2d 1525, 1533 (11th Cir. 1992) (“[I]f counsel believes that it wou
be unwise for the defendant to testify, counsel may, and indeed should, advise me
client in the strongest possible terms not to testify. The defendant can then make the
choice of whether to take the stand.” (footnote omitted)).
For these reasons, Mr. Odum’s request for a COA for his ineffective assistance
of counsel claims is denied.
6

Case: 19-12320

Date Filed: 06/12/2020

Page: 7 of 10

Claims 3 and 4: Double Jeopardy Claim
Ilnr37-MrPDdmn'-argtres -he was resemenced in 2008 in violation of the
Constitution’s double jeopardy clause.
Mr. Odum was originally sentenced to 20-years imprisonment on Count 1 and
a consecutive 5-years imprisonment on Count 2. After a successful collateral attack
' on his sentence in 2010, Mr. Odum’s case was remanded to the trial court for
resentencing. The trial court resentenced Mr. Odum to its original sentence, 20years imprisonment on Count 1, followed by a consecutive 5-year term on Count 2.
Mr. Odum then filed a motion to correct an illegal sentence, arguing that his sentence
on Count 2 should run concurrently to the sentence for Count 1. The trial court
granted his motion and resentenced Mr. Odum to 25-years imprisonment on Count
1 and a concurrent 5-year sentence on Count 2.
The state court did not unreasonably apply federal law ^Vhen it determined
that Mr. Odum’s resentencing was not unconstitutional. The Supreme Court has
collateral attack does
r\

ot place him in double jeopardy.
i

ee North Carolina v. Pearce. 395 U.S. 711, 720—

21, 89 S. Ct. 2072,2078 (1969), overruled in part on unrelated grounds. Alabama v.
Smith. 490 U.S. 794, 109 S. Ct. 2201 (1989). While Pearce noted that imposing “a
more severe sentenced because of a defendant’s successful appeal or collateral attack
would violate due process, jd. at 725, 89 S. Ct. at 2080, the state habeas court
7

Case: 19-12320

Date Filed: 06/12/2020

Page: 8 of 10

reasonably determined that Mr. Odum’s final sentence was not more sever</t

<3

W
D>

Original sentence. Federal courts have held that a defendant’s right t

e process.

not violated when his resentencing resuhsin “the same total sentence. ’^See Sexto:
v. Kemna. 278 F.3d 808, 812-13 (8th Cir. 2002) (collecting cases). Mr. Odum’s
total sentence—25-years incarceration—remained the same throughout his many
resentencing proceedings.

Reasonable jurists would agree that the state coui

reasonably applied federal law in denying Mr. Odum relief.
Finally, Mr. Odum argues that it violated the prohibition on double jeopan
to pronounce him a Habitual Felony Offender at his resentencing, because he was
never pronounced a Habitual Felony Offender at his original sentencing. The state
habeas court found, however, that the trial court did pronounce him a Habitual
Felony Offender at the original sentencing, as well as at the final resentencing. On
review of the record, reasonable jurisfeScould not disagree that the state court
reasonably determined these facts.
For these reasons, Mr. Odum does not receive a COA on his two double
jeopardy claims.
Motion for Reconsideration of the District Court’s Denial of a Motion to
Supplement the Petition:
Mr. Odum also argues that the District Court wrongly denied his motion for
reconsideration of his unsuccessful motion to supplement his § 2254 petition.
8

V

Case: 19-12320

Date Filed: 06/12/2020

Page: 9 of 10

Reasonable jurists would not disagree that the District Court did not abuse its
discretion by denying the motion for reconsideration.
On January 22,2019, Mr. Odum moved in federal district court to supplement
his § 2254 petition, which was originally filed on February 1, 2016. He sought to
add a claim that the Florida court denied him due process by denying a 2018 motion
to correct illegal sentence that he filed regarding his Habitual Felony Offender status.
In this 2018 motion, Mr. Odum argued that his prior cocaine possession convictiorf
could not have been used as a predicate for his Habitual Felony Offender status. l
The District Court denied his supplement as untimely. Mr. Odum moved the court
to reconsider its denial, and the District Court denied this motion as well.
Reasonable jurists would not debate that the District Court properly exercised
A

its discretion by denying Mr. Odum’s motion to supplement and his motion for
reconsideration. The District Court determined Mr. Odum’s new claim of denial of
due process did not “relate back” to Odum’s timely filed § 2254 claims.

easoned

that the new claim arose out of different factual circumstances—namely, Mr.
Odum’s statutory eligibility as a Habitual Felony Offenderjiased on his
convictions—from the timely claims, which conceme

e jury’s factual findings

about his Habitual Felony Offender status and the trial court’s verbakpronouncement

\0l'{
1 The cocaine possession conviction was discussed, but not actually used as a qualifying
conviction for his Habitual Felony Offender status.
/
9

(

Case: 19-12320

Date Filed: 06/12/2020

Page: 10 of 10

of Habitual Felony Offender status. Reasonable jurists would agree that the District
Court did not abuse its discretion. See Davenport v, United States. 217 FJd 1341,
/"'■

1344-46 (II th. Cir. 2000) (holding that a new habeas claim does not relate back to a
----------

timely filed habeas petition if the new claim “arose f)
occurrences in both time and type”).

separate conduct and

<OAv'-^

CONCLUSION:
Mr. Odum’s motion for a COA is DENIED, Because Mr. Odum is denied a
COA, his motion to proceed in forma pauperis is DENIED AS MOOT.

UNITED^ STATES CIRCUIT JUDGE

to

